CERTIFICATE OF WORD COUNT
NO. 19-353
Trading Technologies International, Inc.,
Petitioner(s),
v.
IBG LLC and Interactive Brokers LLC,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the US INVENTOR AMICUS AT
PETITION STAGE IN SUPPORT OF PETITIONER(S) contains 4503 words, including the parts of the brief
that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
October 18, 2019

SCP Tracking: Dowd-1717 Pennsylvania Avenue, N.W.-Cover Cream

